F
                      CLOSEOUT OF M-92090034


                                                          -
A diary note by Dr. Donald Buzzelli and a letter to Professor
         from Dr. Donald Buzzelli, dated September 22, 1992 and
 ep ember 28, 1992, ,respectively,will serve as the closeout for
this case.




                     r/
Catherine M. Flynn
Staff ~ssociate-forOversight



                                  . .   - , ,
Donald E. Buzzelli
Senior Scientist, Office of Oversight




         ',
         ,    ,
~ontqomery'k. Fisher
~ e ~ coinsel
        u E ~ to the Inspector General


cc:   Inspector General
                              NATIONAL SCIENCE FOUNDATION
                                     1900 G STREET. N.W.
                                    WASHINGTON,D C. 20550



       <+   -        -,:
        8       2.

        OFFICE OF                        SEP 2 8 1992
   INSPECTOR GENERAL




Personal and Confidential                           Certified Mail




Dear Professor        -
Thank you for your letter of September 8, 1992. We have carefully considered the materials
you provided and have concluded that this matter does not constitute misconduct under the NSF
Misconduct Regulation, 45 C.F.R. Part 689. Our jurisdiction is limited to misconduct that "has
                                                                                                 I
occurred in proposing, carrying out, or reporting results from activities funded by NSF". From
the materials you provided it appears that this matter involves no NSF proposals or awards.
Hence, we plan to take no further action and now consider this matter closed.

                                             Sincerely yours,




                                             Donald E. Buzzelli, Sc.D., Ph.D.
                                      t'!
                                        iJ
                                             Senior Scientist, Oversight
                              -
                           Notes on M92090034

   I have examined the file on this new case. The complainant is
                 , a Professor of a             t the - 1
eH-                 is complaining against three other professors m
   his department,                                  A-#
                                                 $ and
   They have allegedly made false claims of authorship in applications
   for university merit pay.            is arguing that these actions
   are plagiarism under Universrty and NSF regulations.
  He took this matter to the Dean of Arts and Sciznces and also to
  the Court of Common Pleas, and was unsuccessful both times. His
  attorney contacted Monte Fisher earlier this year asking for an
  a£fidavit that NSF would consider such misrep~~esentations  to be
  misconduct in science under. its regulation. CJlonte did not give
  that assurance, but the subject later sent =he complaint to us
  anyway.
  Nothing in this case mentions NSF proposals .,r awards.     The
  complainant should be told that NSF has no jurisdiction in this
  matter, and the case should be closed.




  Donald E. Buzzelli
  September 22, 1992
